<html>
<title> - THE VETERANS BENEFITS ADMINISTRATION'S PUBLIC CONTACT PROGRAM AND OUTREACH ACTIVITIES Thursday, March 16, 2006 U.S. HOUSE OF REPRESENTATIVES, SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS, COMMITTEE ON VETERANS' AFFAIRS, Washington, D.C. The Subcommittee met, pursuant to call, at 2:00 p.m., in Room 334, Cannon House Office Building, Hon. Jeff Miller [Chairman of the Subcommittee] presiding. Present: Representatives Miller and Berkley. MR. MILLER. Good afternoon, everybody. This hearing will come to order. Ms. Berkley is on her way. We are meeting today to receive testimony on the Veterans Benefits Administration's Public Contact Program, as well as the extent and nature of current outreach efforts to servicemembers, veterans, and their dependents. In recent years, VBA has done a good job of producing and distributing information that outlines the various benefits and services offered by the Department of Veterans Affairs, including a survivors' benefit website that was launched just last year. The federal government likewise has begun taking a more active role in providing information such as the website firstgov.gov, which is marketed as the "U.S. gateway to all government information." However, web-based and other types of electronic information programs may not be readily accessible to some potential beneficiaries. For this reason, it is vitally important that when someone calls their local VA office, they receive accurate information in a courteous manner. It was brought to my attention through a series of published articles on VA's so-called Mystery Caller Program that almost half the time the callers, who were in fact VA employees posing as customers, were given inaccurate information. In several instances, callers were treated rudely. Veterans and their families deserve better than this. On the 24th of January of this year, I wrote to Admiral Cooper requesting information on what VBA has done to improve its public contact service. I appreciate his timely response. The Mystery Caller Program is the impetus for today's hearing. Ms. Berkley is running a little bit behind schedule, so what I would like to do is begin with panel one. At the end of the panel we will give Ms. Berkley an opportunity for her to begin</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
THE VETERANS BENEFITS ADMINISTRATION'S PUBLIC CONTACT PROGRAM AND OUTREACH 
ACTIVITIES

Thursday, March 16, 2006

U.S. HOUSE OF REPRESENTATIVES,
SUBCOMMITTEE ON DISABILITY ASSISTANCE AND
 MEMORIAL AFFAIRS,
COMMITTEE ON VETERANS' AFFAIRS,
Washington, D.C.


	The Subcommittee met, pursuant to call, at 2:00 p.m., in Room 334, 
Cannon House Office Building, Hon. Jeff Miller [Chairman of the Subcommittee] 
presiding.
	Present:  Representatives Miller and Berkley.
 
	MR. MILLER.  Good afternoon, everybody.  This hearing will come to 
order.  Ms. Berkley is on her way.  We are meeting today to receive testimony 
on the Veterans Benefits Administration's Public Contact Program, as well as 
the extent and nature of current outreach efforts to servicemembers, veterans, 
and their dependents.
	In recent years, VBA has done a good job of producing and distributing 
information that outlines the various benefits and services offered by the 
Department of Veterans Affairs, including a survivors' benefit website that 
was launched just last year.
	The federal government likewise has begun taking a more active role in 
providing information such as the website firstgov.gov, which is marketed as 
the "U.S. gateway to all government information."
	However, web-based and other types of electronic information programs 
may not be readily accessible to some potential beneficiaries.  For this 
reason, it is vitally important that when someone calls their local VA office, 
they receive accurate information in a courteous manner.
	It was brought to my attention through a series of published articles 
on VA's so-called Mystery Caller Program that almost half the time the 
callers, who were in fact VA employees posing as customers, were given 
inaccurate information.  In several instances, callers were treated rudely.  
Veterans and their families deserve better than this.
	On the 24th of January of this year, I wrote to Admiral Cooper 
requesting information on what VBA has done to improve its public contact 
service.  I appreciate his timely response.  The Mystery Caller Program is the 
impetus for today's hearing.
	Ms. Berkley is running a little bit behind schedule, so what I would 
like to do is begin with panel one.  At the end of the panel we will give Ms. 
Berkley an opportunity for her to begin -- give -- her opening statement if 
she chooses to do so.
	You are already seated.  We appreciate your being here.  Mr. Jack 
McCoy is Associate Deputy Under Secretary for Policy and Program Management at 
the VBA.  He is accompanied by Ms. Carolyn Davis, VBA's Outreach Coordinator, 
and Ms. Diane Fuller, the Assistant Director for Veterans Services with the 
Compensation and Pension Service.
	Mr. McCoy, you may begin.


STATEMENT OF JACK MCCOY, ASSOCIATE DEPUTY UNDER	SECRETARY FOR  POLICY AND 
PROGRAM MANAGEMENT, VETERANS BENEFITS ADMINISTRATION; ACCOMPANIED BY CAROLYN 
DAVIS, OUTREACH COORDINATOR; AND DIANE FULLER, ASSISTANT DIRECTOR FOR VETERANS 
SERVICES, COMPENSATION AND PENSION SERVICE, VETERANS BENEFIT ADMINISTRATION

	MR. MCCOY.  Mr. Chairman and Members of the Subcommittee, I appreciate 
the opportunity to appear before you today to discuss VA's outreach activities 
to make servicemembers, veterans and their survivors aware of benefits and 
services.
	As you mentioned, with me today from the Veterans Benefits 
Administration, are Diane Fuller, Assistant Director of the Veterans' Services 
Staff and Carolyn Davis, Veterans Benefits Administration Outreach 
Coordinator.
	Also, my testimony will describe how VA is improving telephone 
services for those who call in to VBA regional offices.  I will specifically 
address the actions that resulted from the mystery caller study which is an 
internal quality improvement initiative.
	Let me first talk about outreach to servicemembers.  Beginning in 
November of 2004, all persons inducted into the five military branches, 
received a VA benefits pamphlet at the military entrance processing station.
	This pamphlet assures that inductees receive basic information on VA 
benefits.  One of VA's most successful outreach programs is the transition 
assistance program through which benefits, briefings, and personal interviews 
are conducted by VA representatives to regular active duty and Guard and 
Reserve members.
	These briefings are key components in ensuring servicemembers 
experience a seamless transition from the military into the VA system.  With 
the activation and deployment of large numbers of Reserve and Guard members 
following September 11, 2001, outreach to this group have been greatly 
expanded.
	For example, the overall number of benefit briefings for this group 
has increased from 821 nationwide in fiscal year 2003, to nearly 2000 
briefings in fiscal year 2005.
	Recently VA and the National Guard Bureau teamed up to improve the 
coordination of Veteran benefits at the State level by training 54 newly hired 
State benefits advisors.  These individuals will educate their fellow combat 
veterans on the many benefits to which they may be entitled.
	Through VA's Disability Transition Assistance Program, or DTAP, 
transitioning servicemembers are made aware of benefits available from VA's 
vocational rehabilitation and employment program.
	Since 2003, VA has placed representatives at key military treatment 
facilities where severely wounded servicemembers from OEF/OIF, are frequently 
sent.  These representatives educate servicemembers and their families on VA 
benefits and services and assist with the filing of disability and vocational 
rehabilitation claims.
	As of January 3rd, 2006, 8,442 hospitalized returning servicemembers 
from the major military treatment facilities have been assisted through this 
program.  VBA continues its benefits delivery and discharge program through 
which servicemembers can apply for service-connected compensation within 180 
days of discharge.
	Currently 140 military installations worldwide participate in this 
program, which includes two sites in Germany and three in Korea.
	Let me now address outreach to recently separated veterans.  The 
Veterans' Assistance at Discharge System, or VADS generates the mailing of a 
welcome home package that includes a letter from the Secretary along with 
pamphlets describing VA benefits.
	Six-month followup letters are also sent to veterans recently 
separated or retired from active duty.  This includes Reserve and Guard 
members.  Separate packages are sent that explain education, loan guaranty, and insurance benefits.
	In the past few years, VBA has enhanced its national effort to reach 
out to former prisoners of war.  News releases have been issued, a redesigned 
website has been activated and letters have been sent to former prisoners of 
war informing them of additional or a higher level of benefits to which they 
may be entitled.
	Regional office outreach coordinators continue to participate in 
outreach activities in their communities.  VBA is enhancing outreach to low-
income and elderly veterans and surviving spouses to make them aware of their 
potential entitlement to pension benefits.
	VBA outreach coordinators routinely participate in events where low-
income and elderly veterans and surviving spouses gather, such as senior 
citizen centers, nursing homes, and senior day care centers.  Relationships 
have been established with local agencies on the aging, social security 
offices and other organizations that come into contact with older Americans.
	VBA has distributed more than two million copies of benefits, 
pamphlets, to more than 1300 social security offices nationwide.  VBA is 
working closer than ever with the Veterans' Health Administration and the 
National Cemetery Administration to ensure benefits information is made 
available at key customer service points.
	We will continue to build and strengthen relationships with agencies 
such as Department of Health and Human Services, AARP, and National Funeral 
Directors.  As part of Public Law 107-95, VA established a full or part-time 
homeless veterans' outreach coordinator in all 57 regional offices.  We will 
continue to work with other federal agencies in groups that are involved in 
homeless veterans' programs.
	I see that my time is up.  If I could just  -- 
	MR. MILLER.  Don't worry about it.  Please continue.
	MR. MCCOY.  Thank you.  I would like to touch on improvement of our 
telephone services.
	In addition to the extensive outreach activities described above, VA 
regional office employees provide direct telephone service to veterans and 
their family members.  In fiscal year 2005, we handled more than 6.4 million 
phone calls.
	In an effort to improve quality, an internal initiative known as The 
Mystery Caller Study, was undertaken to assess the accuracy of the information 
provided over the telephone that is not related to a specific claim.  While 
the findings of this review were disappointing, they have been a catalyst for 
actions to improve the quality of our telephone services.
	VBA has strengthened field guidance, oversight, and accountability 
systems in this area, and we have expanded training resources available to our 
employees.  Completion of an online reference system to help ensure that 
employees provide accurate information is being expedited for delivery by the 
end of this year.  Centralized training is scheduled in June of this year for 
public contact representatives from each of the 57 regional offices.
	We are also in the process of implementing a national telephone 
quality assurance program that we successfully piloted last year.  The Under 
Secretary for Benefits has communicated an expectation to all regional office 
directors that immediate improvements be made in our telephone service to 
veterans and their families.
	It is absolutely essential that we provide complete and accurate 
information to all those who call us for assistance and that our assistance is 
provided with courtesy, understanding and professionalism.  This is and will 
remain a top priority for the entire organization.
	Mr. Chairman, this concludes my testimony, and I will be happy to 
respond to any questions that you or other members of the Subcommittee might 
have.
	[The statement of Mr. McCoy appears on p. 22]
 
	MR. MILLER.  Thank you very much and I appreciate your testimony.  Are 
the VA employees aware that they are being monitored by this program?  Are 
they recorded during this monitoring process, and if not, do you think that it 
should be recorded?
	MR. MCCOY.  They are.
	MS. DAVIS.  They are not recorded.
	MR. MCCOY.  They are not recorded, but they are aware that the silent 
monitoring is going on.  And the fact that they are aware of the silent 
monitoring is one of the things that we brought to light that has started to 
improve our quality.
	If I might just add, I had the opportunity week before last to go down 
to Nashville, Tennessee, and monitor, do silent monitoring myself, along with 
the Deputy Director of C&P service, and we did silent monitoring on four of 
the regional offices there.
	And if I came away with one thing from doing that silent monitoring, 
it was the fact that there are an awful lot of good employees, sometimes 
trying to answer awful complex questions.
	MR. MILLER.  Why do you think, to use your word you were disappointed 
in regards to the results of Mystery Caller Program?  Why do you think it was 
so disappointing?
	MR. MCCOY.  When we did the mystery caller study, obviously we wanted 
to see what kind of quality we had, what kind of quality we were giving to the 
public.  I think what we found out is probably as much as anything was that 
when we did the mystery caller study, it was based on specific calls.  It was 
not based on claim-specific calls -- excuse me.  It was based on general 
calls.
	In other words, someone would call up and ask a general question.  My 
brother is a veteran.  What can you tell me about this benefit?  And we 
learned that we had not trained the people that we have on the telephone well 
enough to handle these type calls.
	MR. MILLER.  Section 7726 of title 38 requires the VA to report on an 
annual basis to Congress on the effectiveness of your outreach programs.  What 
I would like to know from you is if VA is in compliance with this requirement?  
If so, where can I find the recommendations?  And if not, why not?
	MR. MCCOY.  I am not sure I can answer that question, sir.  I know 
that the Department no longer publishes the Secretary's annual report.  This 
report has been succeeded by the annual publication of the performance 
accountability report.  But I can -- I will be glad -- 
	MR. MILLER.  I would just say that section 7726 of title 38 requires 
VA to report annually to Congress on the effectiveness of your outreach 
activities and make recommendations for improvements, and as far as I know, it 
is still a requirement.  So if you could find out?
	MR. MCCOY.  I would be glad to.
	MR. MILLER.  Thank you very much.  I would like to yield now to Ms. 
Berkley, the Ranking Member of the Subcommittee, who does have an opening 
statement, but she has asked that it be entered into the record, and without 
objection, that will de done, and she also has some questions that she would 
like to pose to you, Mr. McCoy.
	Ms. Berkley.
	MS. BERKLEY.  Thank you very much, Mr. Chairman.  I apologize for 
being late.  I try never to do that out of respect, not only for you of which 
I have considerable, but to our witnesses as well.
	The woman that handles my Veterans' Affairs issues, among many others 
in my office, is leaving after this hearing.  It is her last.  So we were 
having a little good-bye celebration in the office, and it went a little bit 
over, but I want to thank Shannon Von Felden from Henderson, Nevada, for her 
service, not only to me and my constituents, but to this Committee as well.  
Thank you very much.
	I do have an opening statement, and as the Chairman said, I would like 
to submit it.  Obviously the purpose of this hearing and the concerns that we 
have is the fact that people call the VA expecting to get some help, and we 
found that a considerable percentage don't get accurate answers, or get 
completely inaccurate answers, and I suspect that your opening statement 
addressed this.
	[The statement of Ms. Berkley appears on p. 20]
 
	MS. BERKLEY.  But I did want to ask some questions and if they have 
already been answered or if they were contained in your opening remarks, I 
apologize a head of time.  But we understand from the American Federation of 
Government Employees, that management at the VA typically views VBA telephone 
services as a low priority.
	Records of calls are not kept.  Emphasis is on reducing the call time 
to comply with the three-minute rule.  Have any studies been undertaken to 
determine that the three minutes is adequate time to respond to a caller, and 
if there in fact this three-minute rule?
	MR. MCCOY.  I am not aware of the three-minute rule.  I would say to 
you that, at each regional office, a veterans' service representative that is 
taking phone calls in the phone unit has a performance standard just as the 
other veterans' service representatives do, and that performance standard 
would be 64 calls per day.
	To say that VBA puts a low priority on phone calls, I would also say 
that each regional office director, in his or her performance standard, has an 
element which is the lost calls or abandoned phone calls that would come into 
a regional office.
	MS. BERKLEY.  Mr. McCoy, if I can direct your attention, and you might 
want to read this, the written statement of the American Federation of 
Government Employees, on page -- bottom of page 2 and 3 -- they talk about 
productivity pressures, including the three-minute rule, and they are 
instructed to comply with both a three-minute time limit for length of calls 
and a three-minute limit on length of time, how long callers wait.
	MR. MCCOY.  I mentioned earlier that two weeks ago, I had the 
opportunity to go to Nashville, Tennessee, and do silent monitoring on four 
regional offices in the southern area, and I would only respond that I can 
assure you that that three-minute was not in effect at those four regional 
offices that I had an opportunity to do silent monitoring on.
	Sometimes it very well might have been a three-minute call, because it 
was a very quick question or someone asking directions.  But I -- 
	MS. BERKLEY.  No.  That is not what they are saying.  They are saying 
that there is a three-minute rule that management is telling them to get on 
the phone, get off the phone within three minutes and pick up the next.
	MR. MCCOY.  Absolutely not, because there are phone calls that take 10 
minutes, 12 minutes, whatever it might be.  That -- I mean I do not know where 
they got that information from.
	MS. BERKLEY.  Well, I think that is exactly the point, that we are 
dealing with issues that do take longer than three minutes.
	In years past, all calls were answered by a public contact unit, and 
these employees received training in telephone interviewing techniques as well 
as substantive matters.  Currently, some regional offices have employees 
splitting their time between public contact and in-depth case development.  
Should VBA reinstate the public contact unit, at least in larger offices; do 
you think?
	MR. MCCOY.  I would answer that by saying that is an issue that, as we 
speak, we are actually looking at right now, and I would even go so far as to 
say that in a few weeks I would have a much better answer, because it is 
something that Admiral Cooper actually tasked me to do.
	MS. BERKLEY.  And while you are looking into that, would you also look 
into whether or not employees assigned to public contact be trained in 
telephone interviewing skills?
	In my own congressional office, I know that perhaps the only contact 
that my constituent or somebody calling my office is going to have is the 
person that answers the phone.  And if they don't, "A," know what they are 
talking about, and, "B," have good telephone skills, I lose that vote.
	And while you may not be losing a vote, you are certainly going to be 
losing the support of the veteran and worse, that veteran isn't going to be 
getting the right information that they need.
	MR. MCCOY.  I agree with you.  And one of the things that we are doing 
now to provide leadership training and direction, not only to our managers, 
but also to the veterans' service representives, answering the phones, is we 
are having workshops to -- I mean we recognize the fact that they need to be 
trained better, and we are going to do that.
	MS. BERKLEY.  What about this as a management tool?  Do you think the 
VBA should award productivity points to public contact employees who provide 
correct and courteous responses, I guess that would be akin to merit pay of 
some kind?  Do you have an incentive or -- 
	MR. MCCOY.  Yeah.  No, I mean I understand the question, but I guess I 
would fall back on the fact that I think, you know, every call that we take, 
people should get the right answer and get professional and courteous service.  
So it shouldn't be an added initiative for them to do that.
	MS. BERKLEY.  Let me ask, it shouldn't be, but if we know we have got 
a problem and only 19 percent of the people that call the VA get accurate 
information and we know 22 percent get absolutely the wrong information, it 
seems that we need to do this a little bit better.
	MR. MCCOY.  I agree.
	MS. BERKLEY.  The Senior Law Project Pension Benefits, Pilot Program 
in Reno, has suggested that the VBA needs to drastically improve their 
information dissemination to reach those most in need and to improve 
coordination and communication with VA medical centers to identify patients 
who may be eligible for the pension program.
	Their testimony mentions a VA patient who spent her first check for 
$94 on food and another for whom a hundred dollars would have seemed like a 
thousand.  Since VA medical centers have information concerning the low-income 
veterans they are serving, what steps do you think could be taken to assure 
the appropriate information and referral is provided to these veterans 
concerning the pension program and, in particular, house-bound and aid and 
attendance benefits?  Is there a way we can be coordinating these programs?
	MR. MCCOY.  Absolutely.  And I would ask Ms. Fuller to address that.
	MS. FULLER.  We have been looking at when we are calling it pension 
outreach, one of the steps we have recently taken is working closer with VHA, 
and they have added benefits information, particularly centered towards 
pension in their enrollment letters that are sent out to veterans in the 
category five enrollment procedures.
	That is going to start May 1st.  And, you know, we had a great concern 
when we read some of the articles that these veterans had visited with -- were 
working with VHA, and they still didn't know about benefits.  So we have 
really heightened our relationship with VHA.
	In addition, some information appeared that these veterans probably 
were working with social workers, and we have done some training on the 
national social workers conference calls and we continue to work with them on 
an ongoing basis.
	We will be distributing more of our pamphlets to the VHA facilities 
for placement in such areas as the pharmacy and other places where veterans 
tend to have to sit and wait for some services.
	MS. BERKLEY.  Okay.  So explain to me, if you would, how that works.  
Do we give a pamphlet at the pharmacy?  Older veteran American starts reading 
the pamphlet and says, "Oh, look at this.  I might be entitled to some 
benefits, or here is a phone number."  What happens once they get that 
pamphlet?
	MS. FULLER.  Once they get the pamphlet, if they think they are 
entitled or want some additional information, we provide our 1-800 number in 
the pamphlet as well as our website address.  We just want to make sure the 
information is out there where our veterans are.
	MS. BERKLEY.  Let me ask you another question, and I don't -- I think 
Mr. McCoy, if you are not the appropriate person, just direct it to the right 
one.  Have you ever considered putting information concerning pension, 
housebound and aid and attendance benefits onto recorded information provided 
to waiting callers at the VA medical centers?  Somebody is on hold.  Do you 
have a recording that can be giving them the information while they are 
waiting?
	MR. MCCOY.  No, ma'am.  We have never considered that.  I mean it is 
obviously something that we would be more than willing to consider.  I would 
be somewhat concerned, I think, about giving that type of information on a 
recording as to how well it might be received by the veteran or whomever it 
might be, but it is definitely something we can consider.
	MS. BERKLEY.  No, I appreciate you telling me that you don't think 
that is a particularly good idea.
	MR. MCCOY.  Well, I didn't say I didn't think it was a good -- 
	MS. BERKLEY.  You don't have to be polite.  All right.  Let me just 
conclude this line of questioning with one other question.  The Pension 
Benefit Pilot Program has clearly identified and assisted eligible veterans 
and survivors in accessing benefits.  Does VBA have any data concerning the 
success of the outreach efforts described in the testimony?
	MR. MCCOY.  Again, I would ask Ms. Fuller.
	MS. BERKLEY.  Yes.
	MS. FULLER.  Are you talking about the pension outreach, that type?
	MS. BERKLEY.  Uh-huh.
	MS. FULLER.  We don't have any specific data on that.  We don't -- if 
you are talking about the number of veterans we have assisted, we do not 
collect that data currently.  We do know that we have -- an elderly outreach 
coordinator in each regional office, and their assignment is to work with the 
area agent and local communities in trying to determine how we can best meet 
the needs of those veterans and surviving spouses.  We have a great concern 
about the surviving spouses as well.
	MS. BERKLEY.  Yes.  Do you think you could provide a list, for the 
record, that you were just discussing, a copy for the record?
	MR. MCCOY.  A list of who we contact and we -- 
	MS. BERKLEY.  The elderly outreach coordinators that you -- 
	MR. MCCOY.  Absolutely.
	[The information is found on p. 75]

	MS. BERKLEY.  I would appreciate that.  In conclusion, let me just 
thank you very much for being here.  I appreciate it.  This is an issue of 
obvious concern to all of us.  I think our veterans have a tough enough time, 
and knowing that these benefits are out there and they are not getting the 
accurate information they need to access these benefits and get the help that 
they need, I think is a concern for all of us and your help in this matter is 
greatly appreciated and I want to thank the Chairman for elevating this to a 
Subcommittee hearing so we can get the information out and endeavor to work 
better to help our veterans.  Thank you very much.
	MR. MILLER.  Can I go back and refer to the three-minute rule that was 
talked about.  I mean while it may not be necessarily written, is it implied 
because of the performance-based requirements of "X" number of calls during a 
day that have to be handled?  And so if you do the math, you come up with 
three minutes per call in order to meet your goal?
	MR. MCCOY.  I absolutely don't believe that is true.
	MR. MILLER.  But didn't you say there were performance-based measures 
that they had to do so many calls a day?
	MR. MCCOY.  Yes, sir.
	MR. MILLER.  Okay.  And how many calls?
	MR. MCCOY.  Sixty-four.
	MR. MILLER.  Okay.
	MR. MCCOY.  But my point was I know from years of experience, that 
that is impossible for, you know, to say someone never said that, no, I 
wouldn't -- 
	MR. MILLER.  No.  I am just trying to figure -- 
	MR. MCCOY.  I wouldn't say that.
	MR. MILLER.   -- out whether it is written or implied.
	MR. MCCOY.  No, sir.  I do not know anywhere that that would be 
written, and I cannot imagine why anyone would imply that, because you can't 
do it.
	MR. MILLER.  Very good.  Thank you very much.  We appreciate it.  You 
are making some efforts in outreach.  This Subcommittee appreciates that.  But 
I think it is obvious from some of the questions and conversations that we 
would like to see greater oversight of the public contact team.  And I think 
your comments today are geared toward that, and I appreciate that.  We will 
probably get back together in the near future and talk about it again.
	I would like to ask a favor if your schedule permits.  Would you stay 
for the next couple of witnesses so you can hear their testimony?
	MR. MCCOY.  Yes, sir.
	MR. MILLER.  Thank you very much.
	MR. MCCOY.  Thank you.
	MR. MILLER.  We will invite the second panel to come to the witness 
table.  It also includes -- it is -- Mike, I think you are going to make an 
introduction.  If everybody could come forward.
	If I could by way of introduction just say that Mrs. Ann Knowles is 
the President of the National Association of County Veterans Service Officers, 
and since 1975 she has worked with veterans and their dependents on behalf of 
the Sampson County government in Clinton, North Carolina.
	Ms. Vivianne Wersel is a new member of the Gold Star Wives, who I had 
an opportunity to meet prior to this hearing.  Her husband, Marine Lieutenant 
Colonel Rich Wersel, served in Operation Iraqi Freedom.  One week upon his 
return, he died on active duty at Camp Lejeune.  Ms. Wersel volunteers on Gold 
Star Wives' Legislative Committee and we appreciate her being here today.
	My good friend, Representative Mike McIntyre, will make the official 
introduction this afternoon.  He represents the 5th Congressional District -- 
fifth term in the 7th Congressional District -- 
	MR. MCINTYRE.  You're right.  Thank you.
	MR. MILLER.  Well, you will probably have many, many more, too.  He 
has introduced legislation to enhance outreach services to veterans and their 
survivors.  Congressman McIntyre, thanks for taking time out of your schedule 
to make this introduction.

STATEMENT OF HON. MIKE McINTYRE, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
OF NORTH CAROLINA

	MR. MCINTYRE.  Well, thank you, Chairman Miller and Ranking Member 
Berkley, and all the good work you all do on behalf of our veterans, and that 
is an absolute commitment I know that we share to those who have sacrificed to 
serve our country.
	And so it does make it a great privilege to come today and to speak 
before you and to introduce a lady who has committed her life, professionally 
and personally, to the type of professional concerns that we know our veterans 
need to have attention given to.
	In 1965, Ann Knowles she began her work as a county service officer 
back then, in her way to becoming national president of the National 
Association of County Veteran Service Officers.  For more than three decades, 
she has assisted our veterans, helping them obtain the benefits they so 
clearly need and deserve.
	In 1992, Ms. Knowles was elected by her peers to serve as the 
President of the North Carolina Association of County Veterans Service 
Officers.  Since 1998, she has held every leadership position in the National 
Association of County Veteran Service Officers, and last year was unanimously 
elected president of the Association.
	She truly exemplifies the compassion and commitment and cooperative 
spirit that enables veterans service officers to help this nation's most 
valiant warriors, our veterans.  Her compassion for helping people led her to 
become a veterans service officer to begin with, and her commitment has been 
exemplified by not only the professional work she had done, but also by her 
working with the state and national organizations.
	I am really pleased that last year in working with Ann, we decided to 
introduce legislation, The Veterans Outreach Improvement Act of 2005, which 
would allow the VA to partner with state and local governments to reach out to 
veterans and their families in ensuring that they receive the benefits for 
which they are eligible and assist them in completing their benefits claims.
	Only about -- this is a pretty amazing figure, Mr. Chairman -- only 
about 30 percent of veterans receive the benefits for which they are eligible.  
And I know in the situation with my father and my father-in-law and other 
relatives, they have been amazed to find out as veterans, the number of 
benefits that are out there that many veterans just don't realize they have 
available.
	I want to thank Ann for coming today.  Our county veterans' service 
officers and our veterans need the assistance that this bill will provide.  I 
encourage the Committee to give the bill its full consideration.  I look 
forward to working with each of you and furthering the call of helping our 
nation's veterans.
	And, again, I want to thank you, and I want to thank Ann for making 
the trip to be here today from our home district to so that you can hear this 
special testimony from a very special lady about a very important bill.
	May God bless you all in your work and may God bless you, Ann, for 
what you and we pray God's blessings upon our nation's veterans.  Thank you, 
Mr. Chairman.
	MR. MILLER.  Thank you very much, Congressman McIntyre from the 7th 
Congressional District.  I appreciate having the opportunity to partner with 
you on many issues that are important to our veterans community.  Thanks for 
being here.
	Those were the bells.  Everybody heard them ring.  We were not supposed to have a vote at this time in the afternoon.  However, I would like 
to go ahead and squeeze as much time as we can with this panel, so we will let 
you know if we begin to draw short of time.
	So, Ms. Knowles, if you would, we will ask you to begin with your 
testimony.

STATEMENT OF ANN G. KNOWLES, PRESIDENT, NATIONAL ASSOCIATION OF COUNTY 
VETERANS' SERVICE OFFICERS

	MS. KNOWLES.  Yes, and I would ask that my testimony be made part of 
the record.
	MR. MILLER.  Without objection.
	MS. KNOWLES.  Chairman Miller, Members of the Subcommittee, it is 
truly my honor to be here to present this testimony before you as president of 
the National Association of County Veterans Service Officers.  I am commenting 
on the following:  recommendations for the improvements to the accuracy and 
quality of service provided by the Veterans Benefit Administration to 
individuals calling into the VBA; recommendations for the creation of a 
federal, state and local government partnership to provide outreach to our 
veterans' independence.
	The National Association of County Veterans Service Officers is an 
organization made up of local government employees.  Our members are tasked 
with assisting veterans in developing and processing their claims.  Between 75 
and 90 percent of all claims originate in a county veterans office.
	Our members sit across the desk each day with these men and women who 
wish to file a claim.  They are our friends, our neighbors, members of our 
community whom we see daily.  We exist to serve veterans and partner with 
national service organizations and the Department of Veterans' Affairs to 
serve veterans.
	We will speak about the VBA's telephone units.  It appears the 
majority of the problems center around new staff with a lack of knowledge of 
VA programs and sometimes disinterest in assisting the veterans or the veteran 
service officer of record.
	When a veteran calls to request a status of his or her claim, the 
answer shouldn't be that request will have to be made in writing.  That is 
definitely the wrong answer.  Worst yet, some have been told wrongly not to 
file a claim.
	The service officers expect to be giving information when calling on 
any veteran they represent.  It is not uncommon to be told we can't give you 
that information if the veteran isn't with you in the office.  The goal of 
people assisting veteran with benefits should be to do what it takes to get 
the veterans the benefits.
	If first impressions mean anything, the first point of contact with 
the VA is the 1-800 number.  Sometimes it has left a bad impression on many 
veterans and their dependents.  So let us fix that.  At one regional office in 
Florida, the service center manager has an excellent solution, and that can be 
found in our written testimony.  I didn't have enough time to go into that, 
but they have an excellent solution.
	Outreach.  Outreach means different things to different people.  
Outreach to the county veterans service officer means directly touching a 
veteran and his dependents.  The VA's concept of outreach is putting posters 
into VA hospitals, to vet centers, to clinics, publicizing in this 
organization's magazines, and these are good.  Both of these methods have the 
ability to reach a certain segment of veterans.
	The outreach that I will address is the hands-on approach.  Across our 
nation, there are veterans that do not think they are a veteran because they 
didn't lose a limb or they didn't get injured.  They came home, went to work 
to support their families.  They have never looked for help from the 
government.
	And when the veteran dies, his wife or his children do not look, 
because they didn't know they were entitled to, that their husband or their 
father's service in serving their country gave them the entitlement.  They are 
mostly lower income and have never reached out to the VA; and, therefore, they 
don't think they are entitled either.
	I look at rural North Carolina and see the great need to make these 
veterans aware that they deserve the benefits, that they are earned 
entitlement.  They are not welfare.  These veterans have never made use of the 
VAMC's, the GI Bill, the pension, the service connected, none of the benefits, 
because they don't think they have earned them.  They just served their 
country and came home.
	It is so rewarding when you can meet a veteran and you tell them what 
they are entitled to, and you see the hope on their face.  It sometimes means 
a difference between eating and taking medication.  I am sure if a study was 
completed, you would see a large number of rural veterans have never used the 
VA for any service. The VA has responsibility to reach out and make everyone 
aware of the entitlement.
	Outreach efforts must be expanded in order to reach those veterans' 
dependents and survivors that are unaware of their benefits.  Only one in 
seven of the survivors are receiving benefits.  It is obvious there is a great 
need for outreach to the veterans community and the local CVSO is the advocate 
closest to the veterans and widows and with minimal funding, could reach the 
maximum number of eligible veterans.
	Therefore, NACVSO is supporting HR 4264 and I am sorry my time is out.  
Would you -- I have got -- 
	MR. MILLER.  Please continue.
	MS. KNOWLES.   -- is supporting HR 4264 and its companion Senate Bill 
1990, introduced by Congressman McIntyre and Senator Richard Burr of North 
Carolina.  This would allow Secretary Nicholson to provide federal, state, 
local grants and assistance to state and county veterans to enhance outreach 
to veterans and their dependents.  We are already present in most communities 
and stand ready to assist the Department of Veterans' Affairs and their task.
	In conclusion, if I have commented on any item of interest to this 
Subcommittee, we stand ready to expand on our comments.  And thank you for 
giving us this opportunity.
	Mr. Miller.  Thank you very much for taking time to brief us.  We will 
have some questions.  I would like to proceed to Ms. Wersel.  You're up, and 
you have a little button right in front of you on that microphone, down at the base.
	[The statement of Ms. Knowles appears on p. 36]
 
STATEMENT OF MS. VIVIANNE C. WERSEL, MEMBER LEGISLATIVE COMMITTEE, GOLD STAR 
WIVES OF AMERICA

	MS. WERSEL.  I am an audiologist.  Can you hear me?
	MR. MILLER.  No.
	MS. WERSEL.  If I say that, can I deduct this on my taxes?  Mass 
screening.
	Mr. Chairman, Representative Berkley, and Members of the Subcommittee 
on Disability Assistance and Memorial Affairs, I would like to thank you for 
the opportunity to testify before you today on behalf of Gold Star Wives 
regarding the importance of accuracy of benefits information and the quality 
of services we see when we are seeking assistance from the Veterans Benefits 
Administration.
	I am here particularly for America's military widows, of which I am 
one, and our children.  I am the widow of Lieutenant Colonel Rich Wersel, 
United States Marine Corps, who served in Iraq on numerous occasions and died 
on active duty at Camp Lejeune one week after his return from Iraq.
	Most recently I have worked to assure that all survivors of active 
duty deaths receive the enhanced benefits of SGLI and the death gratuity, and 
I thank Congress very much for your help.
	Today I am here to share with you my own experiences, along with the 
other widows, with the government regarding how we receive our benefits 
information while experiencing the most difficult time of our life, grieving 
for our husband.
	I want to thank the members of the Subcommittee and its staff for its 
continued support of all programs related to the well-being of widows and 
children.  However, we do have some concerns.
	It is imperative that the death of our spouses should not be 
compounded by the lack of information or confusing information that prevents 
us from obtaining the assistance needed so that we can begin the rest of our 
life without our most critical support and that was our husband.
	Currently we are at war, and there are many, many dying at this moment 
and leaving behind young families.  If there is one message that I could leave 
with you today is that there is never enough accurate information and 
communication.   
	It should not be dependent on us to ask the right question or even to 
know what question to ask.  Getting the right information to the right people 
at the right time is important.  While we are in our fog of grief, we have 
conversations with many agencies and folders are left for us.
	A period of adjustment is needed, often, just to make a phone call, 
check a website.  Lack of information on the VA website can be frustrating.  
It is often beyond our six months or even a year before we can even address 
some of our issues.  By that time our casualty assistance officer is no longer 
available.  However, we do have a site where we can contact the main person 
for each branch of service that helps us.
	Another issue we have is that many of the CACOs, the Casualty 
Assistance Officers, know nothing of the Montgomery GI Bill or the refunds of 
BAH.  That's Basic Allowance Housing.
	We have multiple instances of the governments's failure to change 
crucial, critical information regarding beneficiaries of SGLI and the failure 
to change emergency information provided just before leaving for overseas, 
which is distressful and no fault of the widows.
	We ask your serious consideration of creating an oversight office for 
survivors across the VA and DoD to assure improved delivery of benefit 
information to its widows and extending the outreach time, long enough for it 
to be meaningful for us who are suffering at this time.
	Gold Star Wives sponsors a chat room for new widows so that they would 
have the support of each other as well as those elder widows who have endured 
hardships in earlier times.  We have knowledge based on our chat room which is 
vibrant and gives a realtime look at the issues these widows are facing.
	Many times we are our own best resource system, those in similar 
situations to identify where to go for needed information, needed help, and to 
help the new widows recognize the support that is out there for them.
	Our issues apply both to new widows and older widows.  We are the 
sorority that no one wants to rush, and our membership is always open, 
originally meant to serve as an emotional support it has now turned into an 
avenue of resources for widows.  Here we can share benefit information in a 
user friendly benign setting.
	Also I am here to raise awareness that training material must 
constantly be reviewed and revised because the information is continuously 
changing.  At the most critical time of our lives, we are juggling.  We are 
making decisions.  Where are we going to live?  What are we going to do with 
the children?  Are we going to quit our job?  Are we going to keep our job?  
And if we are keeping our job, how are we going to do it while we are 
grieving?
	I am running short on time.  I am going to go down to -- because I 
think this is really important and that is there are some issues we have 
encountered, in getting information regarding our benefits.  A lot of the 
information is critical.  I am out of time.  May I proceed?
	MR. MILLER.  Please proceed.
	MS. WERSEL.  Thank you.
	MR. MILLER.  I am going to have to leave in just a minute.  Ms. 
Berkley has already headed to the vote.  We have about run out of time, but 
please proceed.
	MS. WERSEL.  Thank you.  A lot of the information is difficult for the 
CACOs to even understand, the smoke and mirrors of SBP/DIC benefits, the child 
option SBP versus the spouse option SBP, confusion with funeral costs, 
incorrect SGLI, benefit information, CHAMPVA; the list goes on.  This 
information isn't clear, even for the CACOs to deliver to us and much less for 
us to understand it.
	Bereavement counseling is an issue for us, just trying to get on the 
website to understand where we go for counseling, what type of referral we 
need.  Are the counselors really ready for the young widows?  I don't think 
they are.  I think we are a breed of our own it is difficult for them to 
understand that we may need more time, more frequent visits.  We may need more 
sensitivity when it comes to dealing with a grieving spouse.  And from the 
response that we are getting from our chat room, this is now being done.
	In conclusion, we do not want to be forgotten.  Whenever the ultimate 
sacrifice is given, there is family left behind.  When our nation asked our 
husbands to give their lives, we are asked to continue our lives with a gap so 
large it is difficult to transgress.
	I am asking you to please show the spirit of this nation by not 
forgetting us in our time of need.  We do not come to condemn the various 
government personnel who touch our lives; giving them the tools they need to 
support us widows who are forced to exist in a fog of grief, so that we can 
make a million unsure decisions that we never had to make before.
	I thank this Committee for using this hearing as one more avenue of 
awareness and education, for giving me the opportunity to share my thoughts 
and the goals of Gold Star Wives.  We hope that this will alert you to 
discrepancies and inefficiencies that you may be able to alleviate in your 
deliberations this year.  We will be happy to continue to work with you in 
addressing any and all outreach initiatives.  Thank you.
	[The statement of Ms. Wersel is on p. 44]
 
	MR. MILLER.  Thank you very much, and rest assured you are not 
forgotten.  We have to ensure that our servicemembers, veterans, and their 
survivors are well informed of all of the services that are available out 
there to ease their transition to civilian life and also to those widows who 
are out there who have lost a spouse.
	Without objection, statements will be entered into the record from the 
Senior Law Project at Washoe County Senior Center and the American Federation 
of Government Employees.  Also, all members may have questions to submit to 
witnesses.
	[The statement of AFGE, AFL-CIO is on p. 54]

	[The statement of VPBPS is on p. 65]
 
	[The information is on p. 70]
 
	MR. MILLER.  Again, I apologize.  This is not the way we were supposed 
to have ended this today.  Now I have to go for a vote.  We will submit 
questions to you for the record, and we will make sure that VA gets the 
responses to your questions because I had hoped that they would be made in 
public.
	We thank the VA for staying behind, and I would say I have got to go 
to the vote now, so with nothing further this hearing is adjourned.
	[Whereupon, at 2:52 p.m., the Subcommittee was adjourned.]
  

</pre></body></html>
